UNIVERSITY OF VIRGINIA SCHOOL OF LAW
Supreme Court Litigation Clinic

Directors
Donald Burke
Joshua S. Johnson
Matthew Madden
Jeremy C. Marwell
Daniel R. Ortiz
Mark T. Stancil

July 28, 2020
Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543-0001
Re: Kollaritsch v. Michigan State University Board of Trustees, No. 20-10
Dear Mr. Harris:
Petitioner in the above-captioned case hereby gives blanket consent to the
submission of timely filed briefs amici curiae in support of petitioner, respondents, or
neither party.
Yours sincerely,
Daniel R. Ortiz
Counsel of Record
cc: Michael E. Baughman
Counsel of Record for Respondent

580 Massie Road • Charlottesville, VA 22903-1738 • PHONE: 434.924.3127 • FAX: 434.982.2845 • dortiz@law.virginia.edu • www.law.virginia.edu

